August 6, 2021
By Electronic Filing and Overnight Delivery
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk,
1 First Street, N.E.
Washington, D.C. 20543
Re:

Wesley Lynn Ruiz v. Bobby Lumpkin, No. 21-5048

Dear Mr. Harris:
This letter is to request a 30-day extension of time, up to and including September
8, 2021, in which to file a brief in opposition in the above-styled cause. This request
for an extension of time is not intended to unnecessarily delay this proceeding.
Rather, other administrative responsibilities and personal matters have prevented
the undersigned from timely answering Ruiz’s petition.
The undersigned spoke with Stuart Lev, counsel for Ruiz, who does not oppose this
motion.
Thank you for your consideration of this matter.
Sincerely,
TOMEE M. HEINING
Assistant Attorney General
(512) 936-1600
cc:

Stuart B. Lev
Federal Community Defender Office
For the Eastern District of Pennsylvania
The Curtis Center, Suite 545 West
Independence Square West
Philadelphia, PA 19106
(215) 928-0520
Stuart_lev@fd.org

POST OFFICE BOX 12548, AUSTIN, TEXAS 78711-2548 TEL:(512) 463-2100
An Equal Employment Opportunity Employer

WEB: WWW.TEXASATTORNEYGENERAL.GOV

